APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Fourth
Circuit
(August 13, 2019) . . . . . . . . . . . . . App. 1
Appendix B Memorandum Order in the United
States District Court for the Eastern
District of Virginia, Richmond Division
(July 27, 2018). . . . . . . . . . . . . . . App. 10
Appendix C Memorandum Order in the United
States District Court for the Eastern
District of Virginia, Richmond Division
(June 27, 2018) . . . . . . . . . . . . . . App. 19
Appendix D Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Fourth
Circuit
(September 16, 2019) . . . . . . . . . App. 23

App. 1

APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1995
[Filed August 13, 2019]
___________________________________
KIMBERLY D. COLLINS,
)
)
Plaintiff - Appellant, )
)
v.
)
)
GWENDOLYN THORNTON, Ph.D., )
)
Defendant - Appellee. )
___________________________________ )
Appeal from the United States District Court for the
Eastern District of Virginia, at Richmond. Henry E.
Hudson, Senior District Judge. (3:18-cv-00210-HEH)
_______________
Submitted: June 28, 2019 Decided: August 13, 2019
_______________
Before MOTZ and RUSHING, Circuit Judges, and
SHEDD, Senior Circuit Judge.
_______________
Affirmed by unpublished per curiam opinion.

App. 2
_______________
Richard F. Hawkins, III, THE HAWKINS LAW FIRM,
PC, Richmond, Virginia, for Appellant. Mark R.
Herring, Attorney General, Cynthia V. Bailey, Deputy
Attorney General, Carrie S. Nee, Senior Assistant
Attorney General, Toby J. Heytens, Solicitor General,
Matthew R. McGuire, Principal Deputy Solicitor
General, Michelle S. Kallen, Deputy Solicitor General,
Brittany M. Jones, John Marshall Fellow, OFFICE OF
THE ATTORNEY GENERAL OF VIRGINIA,
Richmond, Virginia; Ramona L. Taylor, University
Legal Counsel, VIRGINIA STATE UNIVERSITY,
Petersburg, Virginia, for Appellee.
_______________
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Kimberly D. Collins appeals from the district court’s
June 27, 2018, order denying her motion to extend time
to serve her 42 U.S.C. § 1983 (2012) complaint on
Defendant and dismissing it without prejudice under
Fed. R. Civ. P. 4(m) for untimely service and its July
27, 2018, order denying her Fed. R. Civ. P. 59(e) motion
to alter or amend that judgment. We affirm.
We review the dismissal of a complaint for failure to
timely serve process for abuse of discretion. Shao v.
Link Cargo (Taiwan) Ltd., 986 F.2d 700, 708 (4th Cir.
1993) (applying Rule 4(m)’s predecessor, Fed. R. Civ. P.
4(j)). We also review the district court’s decision on a
motion to alter or amend judgment under Rule 59(e) for
abuse of discretion. Mayfield v. Nat’l Ass’n for Stock

App. 3
Car Auto Racing, Inc., 674 F.3d 369, 378 (4th Cir.
2012). “A district court abuses its discretion only where
it has acted arbitrarily or irrationally, has failed to
consider judicially recognized factors constraining its
exercise of discretion, or when it has relied on
erroneous factual or legal premises.” L.J. v. Wilbon,
633 F.3d 297, 304 (4th Cir. 2011) (internal quotation
marks, alteration, and ellipsis omitted).
Rule 4(m) requires a plaintiff to serve a defendant
within 90 days after her complaint is filed. Fed. R. Civ.
P. 4(m). A plaintiff may escape dismissal for failure to
timely serve process if she demonstrates “good cause”
for the delay or if the district court exercises its
discretion to extend the time for service. Id. With
respect to the June 27 order, Collins argues on appeal
that the district court abused its discretion in denying
her motion to extend time to complete service for three
reasons.
First, Collins argues that her motion to extend was
“governed by” Fed. R. Civ. P. 6(b)(1)(A) because it was
filed before the expiration of the 90-day service
deadline set forth by Rule 4(m) and that the district
court reversibly erred in failing to apply what she
characterizes as the “liberal, non-rigorous, light, and
lenient standard applied to pre-deadline motions for
extension filed under Rule 6(b)(1)(A).” As Collins
acknowledges, however, and as the record reflects, her
motion to extend explicitly sought an extension under
Rule 4 and explicitly asserted that “good cause” under
this Rule had been established. The motion did not
invoke Rule 6. “Absent exceptional circumstances, . . .
we do not consider issues raised for the first time on

App. 4
appeal. Rather, we consider such issues on appeal only
when the failure to do so would result in a miscarriage
of justice.” Robinson v. Equifax Info. Servs., LLC, 560
F.3d 235, 242 (4th Cir. 2009) (internal quotation marks
and citation omitted). Collins has not argued that
exceptional circumstances are present or that a
miscarriage of justice would result if this Court failed
to consider her arguments, and we find after review of
the record no such circumstances warranting departure
from the general rule. We therefore decline to consider
these arguments on appeal.
Next, Collins argues that the district court’s denial
of her motion for extension of time was an abuse of
discretion because the court did not “discuss or
evaluate” whether she or her counsel had acted in bad
faith or whether any prejudice to the defendant existed,
reached its conclusion that she had not demonstrated
good cause or excusable neglect without providing
“any” legal analysis of applicable factors, and erred in
concluding she had not established good cause
warranting the extension. Although other provisions of
the Federal Rules of Civil Procedure expressly instruct
a district court to consider whether a party has acted in
bad faith or whether granting a particular request will
cause prejudice, Rule 4(m) does not so instruct. Rather,
the Rule directs that, if the plaintiff shows “good cause”
for her failure to serve the complaint in a timely
manner, then the district court must “extend the time
for service for an appropriate period.” Fed. R. Civ. P.
4(m). What constitutes “good cause” for purposes of
Rule 4(m) “necessarily is determined on a case-by- case
basis within the discretion of the district court.” Scott
v. Md. State Dep’t of Labor, 673 F. App’x 299, 306 (4th

App. 5
Cir. 2016) (No. 15-1617); Nafziger v. McDermott Int’l,
Inc., 467 F.3d 514, 521 (6th Cir. 2006) (“Establishing
good cause is the responsibility of the party opposing
the motion to dismiss . . . and necessitates a
demonstration of why service was not made within the
time constraints.” (internal quotation marks omitted)).
Here, the district court concluded that Collins had
failed to demonstrate good cause based on the
representation of Collins’s counsel in the motion to
extend concerning his own course of conduct regarding
his compliance with the 90-day service deadline.
Collins has not shown that the district court abused its
discretion in reaching this conclusion.
Counsel’s representations in the motion—the only
pleading before the court requesting extension—
established that he did not even attempt to complete
service or obtain a waiver of service until there were 6
days left in the 90-day service period. Counsel also did
not seek an extension of time to effect service until the
last day of the 90-day service period. Entirely absent
from the motion, however, is any explanation as to why
counsel waited approximately two months after
issuance of the summons to attempt service and
further failed to complete service or obtain a waiver of
service within the 90-day period. The district court
properly reached its conclusion that no good cause was
present by considering and analyzing appropriate
factors before it bearing on whether Collins’s counsel
was diligent in his effort to effect service.
Third, Collins appears to contend that the district
court erred in its legal analysis underpinning its good
cause determination by not applying a list of eight

App. 6
factors identified in a district court decision, Robinson
v. G D C, Inc., 193 F. Supp. 3d 577 (E.D. Va. 2016), a
list of six factors recited in this court’s unpublished
opinion Scott v. Md. State Dep’t of Labor, 673 F. App’x
299 (4th Cir. 2016) (No. 15-1617), or both. These cases,
we conclude, do not help Collins. Neither decision sets
out factors district courts in this Circuit must consider
in assessing whether good cause warranting an
extension of time for service is present under Rule
4(m). In focusing on the information Collins’s counsel
presented in the motion to extend regarding his efforts
at service, the district court did not abuse its discretion
as Collins contends. Further, as there is no evidence
the court relied on an erroneous factual or legal
determination in denying the motion to extend, an
abuse of discretion in this regard has not been
established.
Turning to the district court’s July 27 order denying
Collins’s Rule 59(e) motion to alter or amend judgment,
such a motion may only be granted “in three situations:
(1) to accommodate an intervening change in
controlling law; (2) to account for new evidence not
available at trial; or (3) to correct a clear error of law or
prevent manifest injustice.” Mayfield, 674 F.3d at 378
(internal quotation marks omitted). Collins argues that
the district court abused its discretion in denying the
motion in three respects: first, because no extension of
time for service actually was necessary because timely
and proper service on Defendant had been made;
second, because the court’s determination that the
record did not establish good cause for an extension
was erroneous; and third, because the court gave
insufficient weight to the consideration that dismissal

App. 7
of her complaint without prejudice was, in effect, a
dismissal with prejudice because she filed her
complaint on the last day of the applicable statute of
limitations.
We find no abuse of discretion in the district court’s
denial of Collins’s Rule 59(e) motion. As the district
court held, Collins’s legal theory that no extension of
time for service was necessary failed because she did
not show that Defendant’s assistant was authorized by
appointment or by law to accept service on Defendant’s
behalf. See Fed. R. Civ. P. 4(e)(2)(C).
In addition, Collins’s Rule 59(e) argument on good
cause merely reiterated facts presented in her motion
to extend and relied on both legal arguments and
factual circumstances she could have raised in that
motion but did not. The same is true with respect to
Collins’s third contention. Collins could have, but failed
to, assert prior to the June 27 order that dismissal of
her complaint would have been a harsh and
unwarranted outcome in view of the likely bar to future
litigation she faced based on the statute of limitations.
Because Rule 59(e) motions may not be used “to raise
arguments or present evidence that could have been
raised prior to the entry of judgment,” Exxon Shipping
Co. v. Baker, 554 U.S. 471, 485 n.5 (2008) (internal
quotation marks omitted); Pac. Ins. Co. v. Am. Nat’l
Fire Ins. Co., 148 F.3d 396, 403 (4th Cir. 1998) (“Rule
59(e) motions may not be used . . . to raise arguments
which could have been raised prior to the issuance of
the judgment, nor may they be used to argue a case
under a novel legal theory that the party had the
ability to address in the first instance. . . . The Rule

App. 8
59(e) motion [also] may not be used to relitigate old
matters.” (internal quotation marks omitted)), the
denial of Collins’s motion was not an abuse of
discretion.*
Accordingly, we affirm the district court’s orders.
We dispense with oral argument because the facts and
legal contentions are adequately presented in the
materials before this court and argument would not aid
the decisional process.
AFFIRMED

*

We further conclude that Collins’s motion did not plausibly
suggest or establish the presence of a manifest injustice or a clear
error of law in the district court’s June 27 denial and dismissal
order.

App. 9
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1995
(3:18-cv-00210-HEH)
[Filed August 13, 2019]
___________________________________
KIMBERLY D. COLLINS
)
)
Plaintiff - Appellant
)
)
v.
)
)
GWENDOLYN THORNTON, Ph.D. )
)
Defendant - Appellee
)
___________________________________ )
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the
judgment of the district court is affirmed.
This judgment shall take effect upon issuance of
this court’s mandate in accordance with Fed. R. App. P.
41.
/s/ PATRICIA S. CONNOR, CLERK

App. 10

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
Civil Action No. 3:18cv210-HEH
[Filed July 27, 2018]
___________________________________
KIMBERLY D. COLLINS,
)
)
Plaintiff,
)
)
v.
)
)
GWENDOLYN THORNTON, Ph.D., )
)
Defendant.
)
___________________________________ )
MEMORANDUM ORDER
(Denying Motion to Alter Judgment)
THIS MATTER is before the Court on Plaintiff
Kimberly D. Collins’s (“Plaintiff’) Motion to Alter
Judgment, filed on July 25, 2018 (ECF No. 8). For the
reasons stated below, the Motion will be DENIED. The
matter will remain CLOSED.
On June 27, 2018, the Court denied a motion from
Plaintiff for an extension of time to serve Defendant
Gwendolyn Thornton, Ph.D. (“Defendant”). (Mem.
Order, ECF No. 6.) Because the deadline for service

App. 11
upon Defendant was June 26, 2018, and because the
Court found that service upon Defendant’s
administrative assistant did not qualify as service upon
Defendant herself and no good cause existed to warrant
the requested extension, the Court dismissed the action
without prejudice pursuant to Rule 4(m) of the Federal
Rules of Civil Procedure. (See id.) Counsel for Plaintiff
now comes before the Court, requesting that it
reconsider this dismissal. Primarily, Counsel re-argues
that Defendant’s administrative assistant was a
permissible proxy for service on Defendant, and
alternatively that the Court should have granted
Plaintiff an extension for service because of either good
cause or the probable prejudice to Plaintiff if it does
not.
Federal Rule of Civil Procedure 4(m) provides the
time limit for service on a defendant. It explicitly
states:
If a defendant is not served within 90 days after
the complaint is filed, the court . . . must dismiss
the action without prejudice against that
defendant or order that service be made within
a specified time. But if the plaintiff shows good
cause for the failure, the court must extend the
time for service for an appropriate period.
Fed. R. Civ. P. 4(m).
After Plaintiff filed suit on March 28, 2018, the
Clerk’s Office contacted Plaintiff twice with reminders
to prepare a summons for service and file it with the
Court. Despite this, Plaintiff failed to serve Defendant
within the ninety days allotted by Rule 4. Instead,

App. 12
Counsel for Plaintiff did not even begin to attempt to
reach out to Defendant (or, rather, to the individual
whom Counsel assumed would be representing
Defendant) until six days before the service deadline.
Failing in those efforts to obtain a response to his
request for waiver of service, on the June 26, 2018
service deadline, Counsel finally hired Courier One to
serve Defendant. Courier One apparently went to
Defendant’s place of work and, finding that Defendant
was absent and would not return for a week, left the
summons and complaint with Defendant’s
administrative assistant. After the Court dismissed
this case for failing to timely serve Defendant, Courier
One filed a Proof of Service indicating that, on June 26,
it served the summons on Tracy Williams, “who is
designated by law to accept service of process on behalf
of [Defendant].” (Proof of Service, ECF No. 7.) The
present Motion followed.
Plaintiff now argues that the Court’s dismissal of
the action “rests on a factually incorrect premise—the
notion that service was not timely.” (Pl. Mem. Supp.
Mot. Alter (“Pl. Mem.”) 7, ECF No. 9.) Citing cases from
the Seventh Circuit, which, it should be noted, are nonbinding upon this Court, Plaintiff argues that “[a]
signed return of service constitutes prima facie
evidence of valid service.” (Id. (quoting Relations, LLC
v. Hodges, 627 F.3d 668, 672 (7th Cir. 2010)).) The
problem for Plaintiff is that the Court is not
questioning the fact that the process server left the
summons with Defendant’s administrative assistant.
The Court will even accept, for the sake of the
discussion, Plaintiffs semantic distinction between
Courier One having “left” the summons with

App. 13
Defendant’s administrative assistant and the assistant
having “accepted” the summons by taking it from
Courier One. (Id. at 5.) Where the Court remains
unsatisfied is with the legal contention that this
administrative assistant is in fact Defendant’s agent
and authorized to accept service for Defendant.
Nowhere in Plaintiffs twenty-one page Memorandum
in Support of the Motion to Alter Judgment can the
Court find any new fact, law, or argument that changes
the Court’s initial impression that Defendant’s
administrative assistant was not an agent authorized
by law to accept service for Defendant.1 Accordingly,
the Court will not alter its finding that Defendant was
not timely served.
Because Defendant was not served within the 90
days required by Rule 4(m), Plaintiff’s only hope for
avoiding dismissal is an extension of time for service.
The text of the Rule quoted above makes clear that if
Plaintiff can show good cause, the time for service of
process “must” be extended; the advisory committee’s
notes on Rule 4(m) also indicate that it is within the
Court’s discretion to grant an extension absent good
cause. The Court is not convinced that good cause

1

In its previous Memorandum Order, the Court mistakenly
referred to “Ms. Taylor” when discussing Defendant’s
administrative assistant. The administrative assistant was
actually not referred to by name in Plaintiff’s Motion for Extension
of Time; Ms. Taylor is counsel for Defendant’s employer, Virginia
State University (“VSU”), and had no part in the Courier One
interaction. This misnomer does not impact the validity of the
Court’s analysis, however, as it explicitly stated that it did not find
any indicia that the administrative assistant was an agent legally
authorized to accept service on behalf of Defendant.

App. 14
appears on this record. Citing to a district court
opinion, which in turn relies on circuit court opinions
from outside the Fourth Circuit, Plaintiff would have
the Court consider a number of factors in determining
“good cause,” including:
(i) the possibility of prejudice to the defendant,
(ii) the length of the delay and its impact on the
proceedings, (iii) the reason (s) for the delay and
whether the delay was within the plaintiff’s
control, (iv) whether the plaintiff sought an
extension before the deadline, (v) the plaintiff’s
good faith, (vi) the plaintiff’s pro se status,
(vii) any prejudice to the plaintiff, such as by
operation of statutes of limitation that may bar
refiling, and (viii) whether time has previously
been extended.
(Pl. Mem. 8 (citing Robinson v. GDC, Inc., 193 F. Supp.
3d 577, 580 (E.D. Va. 2016)).) This disregards
precedent from the Fourth Circuit itself, however,
which places the brunt of the Court’s focus in
determining good cause on the plaintiff’s reasons for
not complying, not on the broader ramifications of
failing to perfect service within the time set by the
Rule. See Mendez v. Elliot, 45 F.3d 75, 78-79 (4th Cir.
1995); Giacomo-Tano v. Levine, Op. No. 98-2060, 1999
WL 976481, at *2 (4th Cir. Oct. 27, 1999) (“Generally
speaking, in determining whether to dismiss the
complaint for a violation of Rule 4(m), the primary
focus is on the plaintiff’s reasons for not complying
with the time limit in the first place.”); Scruggs v.
Spartanburg Reg’l Med. Ctr., Op. No. 98-2364, 1999
WL 957698, at *2 (4th Cir. Oct. 19, 1999) (“Under

App. 15
Mendez, the district court could grant an extension only
for good cause, and plainly Scruggs failed to show good
cause for her continued failure to comply with Rule 4’s
mandates .... ”).
As discussed in its previous Memorandum Order,
the Court is not persuaded that Plaintiff’s reasons for
noncompliance with Rule 4(m) constitute good cause.
(See Mem. Order, ECF No. 6.) The additional facts
presented in Plaintiff’s Motion to Alter Judgment do
not change the Court’s analysis. For example, the fact
that in 2016, Plaintiff’s Counsel emailed Ramona
Taylor, counsel for Defendant’s employer, a copy of a
complaint in a different action against Defendant and
VSU is completely irrelevant to why Counsel failed to
timely serve Defendant in the present suit. Indeed,
Counsel’s admission that Plaintiff previously filed suit
against Defendant and her employer (which was
premised on the same facts as this case and
subsequently voluntarily dismissed without prejudice,
see Am. Compl., Collins v. Virginia State University,
Case No. 3:16cv692 (E.D. Va. 2016)) suggests that
Counsel was aware that Plaintiff had little to no time
remaining on her statute of limitations clock, and
therefore he should have prioritized the diligent
prosecution of this case rather than push it to the back
of his caseload. The Court is not unsympathetic to the
family emergency that arose for Plaintiff’s Counsel;
however, this does not excuse the eighty-three days
prior to that event when Counsel did not attempt to
arrange for service.
Plaintiff would have the Court place particular
emphasis on the prejudice to Plaintiff that will

App. 16
potentially result from the dismissal of this action,
given that “the statute of limitations here has almost
certainly run on [Plaintiff’s] current claim against Dr.
Thornton .... ” (Pl. Mem. 11.) However, binding
authority from the Fourth Circuit makes clear that the
Rule 4(m) does not in and of itself “give the [plaintiff]
a right to refile without the consequence of time
defenses, such as the statute of limitations.” Mendez,
45 F.3d at 78 (4th Cir. 1995) (citing Changes in Federal
Summons Service, 96 F.R.D. at 120; Powell v. Starwalt,
866 F.2d 964, 966 (7th Cir. 1989) (“without prejudice”
does not mean “without consequence”)).2 Counsel’s
failure to pursue this action diligently during the 90
days allotted by Rule 4(m) is not the Court’s fault, and
whatever potential prejudice exists as to Plaintiff does
not lie at the Court’s door.3

2

Since Mendez, Rule 4(m) has been amended to shorten the period
for service from 120 days to 90 days. Other than that, there have
been no substantive changes to the Rule, and Mendez remains the
only binding authority on the issue in this Circuit. See Patterson
v. Brown, 2008 WL 219965, at *14 n.7 (E.D. Va. Jan. 24, 2008)
(summarizing changes in the law post-Mendez but concluding that
the case remains good law); Fed. R. Civ. P. 4(m) advisory
committee’s note to 2015 amendment.

3

Plaintiff cites an unpublished Fourth Circuit opinion to suggest
that a district court will be reversed if it fails to give “proper
consideration to the fact that such a dismissal would effectively
dismiss the plaintiff’s case with prejudice.” (Pl. Mem. 11, citing
Jones v. United States, Op. No. 11-2267 (4th Cir. Apr. 30, 2012)
(unpub.)). In Jones, the Circuit Court found that the district court
“stated only that it found Jones’ arguments [against dismissal]
unpersuasive and unconvincing[,]” without providing the Court of
Appeals with any indicia of the factors it considered in reaching its
decision beyond the assumption that the plaintiff would not be

App. 17
Finally, Plaintiff argues that, “even in the absence
of good cause, this Court should have exercised its
discretion to extend the time to serve” Defendant. (Pl.
Mem. 11.) While it is true that a court has the
discretion to grant an extension of time even if there
has been no good cause shown, such a decision is purely
that: discretionary. See Fed. R. Civ. P. 4(m) advisory
committee’s note to 1993 amendment. The fact that
other courts have granted extensions of time “on far
less compelling facts than those that exist here,” (Pl.
Mem. 12), does not require this Court to grant a similar
extension in this case. Again, “without prejudice” does
not mean “without consequence,” Mendez, 45 F.3d at
78, and Plaintiff’s Counsel’s long history of missing

prejudiced by the dismissal. Jones, Op. No. 11-2267 at 2. Because
the Fourth Circuit found that this single factor was factually
incorrect in the circumstances of the case, it was forced to find that
the district court abused its discretion. Id. at 3. Aside from being
non-binding precedent, Jones does not apply here because the
Court does recognize—and is not unsympathetic to—the fact that
Plaintiff herself may in fact be prejudiced by this dismissal. This
does not change the fact, however, that for the reasons discussed
in this opinion and in the Court’s previous Memorandum Order,
the Court finds that Plaintiff has not shown good cause warranting
an extension instead of dismissal.

App. 18
deadlines4 and setting back the efficient administration
of cases in this Court must be brought to an end.
Accordingly, the Court DENIES Plaintiff’s Motion
to Alter Judgment (ECF No. 8). This case remains
CLOSED.
The Clerk is DIRECTED to send a copy of this
Memorandum Order to all counsel of record.
It is so ORDERED.
/s/Henry E. Hudson
Henry E. Hudson
Senior United States District Judge
Date: July 27, 2018
Richmond, Virginia

4

See, e.g., Notice of Removal, Garnett v. Remedi Seniorcare of Va.,
LLC, et al., ECF No. 1, Case No. 3:17cv128 (E.D. Va. Feb. 9, 2017)
(dismissal aff’d Garnett v. Remedi Seniorcare of Va., LLC, 892 F.3d
140 (4th Cir. 2018)). Counsel for Plaintiff in the present case also
served as the plaintiff’s counsel in Remedi, and similarly failed to
serve a lynchpin defendant in the time period allowed. The Court
declines to recite all of the other instances of Counsel’s tardy filing
or requests for extension.

App. 19

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
Civil Action No. 3:18cv210-HEH
[Filed June 27, 2018]
___________________________________
KIMBERLY D. COLLINS,
)
)
Plaintiff,
)
)
v.
)
)
GWENDOLYN THORNTON, Ph.D., )
)
Defendant.
)
___________________________________ )
MEMORANDUM ORDER
(Denying Motion for Extension & Dismissing
Without Prejudice)
THIS MATTER is before the Court on Plaintiff
Kimberly D. Collins’s Motion to Extend Time to
Complete Service on the Defendant, filed on June 26,
2018 (ECF No. 4). For the reasons stated below, the
Motion is DENIED and the action is DISMISSED
WITHOUT PREJUDICE.
The Complaint in this case was filed on March 28,
2018. Accordingly, Plaintiff had ninety days—i.e., until

App. 20
June 26, 2018—to complete service. Fed. R. Civ. P.
4(m). Counsel for Plaintiff filed the Motion to Extend
Time at 4:31 p.m. on June 26, for all practical purposes
the eleventh hour of the workday on the day of his
deadline. In his Motion, Plaintiff’s counsel represents
that did not even attempt to complete service or obtain
a waiver thereof until June 20, 2018. Prior to this time,
the Clerk’s Office had to remind counsel for Plaintiff
twice, on March 30 and April 16, to prepare a summons
and file it with the Court. Counsel finally submitted a
proposed summons on April 17, and the Court issued it
on April 18. Plaintiff’s counsel gives no explanation as
to why he failed to complete—or even attempt—service
in the intervening two months since that date.
Contrary to the assertion in the Motion to Extend
Time, this does not demonstrate excusable neglect, but
rather neglect, plain and simple.
Furthermore, to the extent Plaintiff’s counsel raises
the point, the Court is not satisfied that Defendant’s
administrative assistant was a properly authorized
agent to receive service on Defendant’s behalf. Plaintiff
has sued Defendant in her individual capacity. Federal
Rule of Civil Procedure 4(e) provides that an individual
may be served by:
(1)

following state law for serving a summons
in an action brought in courts of general
jurisdiction in the state where the district
court is located or where service is made;
or

(2)

doing any of the following:

App. 21
(A)

delivering a copy of the summons
and of the complaint to the
individual personally;

(B)

leaving a copy of each at the
individual’s dwelling or usual place
of abode with someone of suitable
age and discretion who resides
there; or

(C)

delivering a copy of each to an
agent authorized by appointment
or by law to receive service of
process.

Fed. R. Civ. P. 4(e).
State law, in this case Virginia law, allows for
personal service upon the individual, substitute service
at the individual’s place of abode, or service through
publication if either of the two foregoing methods
cannot be effected. Va. Code Ann. § 8.01-296. Plaintiff’s
counsel only apparently attempted to avail himself of
the option provided in Federal Rule 4(e)(2)(C): service
upon an authorized agent. However, nothing suggests
that Defendant’s administrative assistant, Ms. Taylor,
was in fact an agent of Defendant, let alone an
authorized one. She is an employee of VSU, not of
Defendant personally, and there is no indication she
was authorized by law to accept service on behalf of
Defendant. Ms. Taylor’s ultimate refusal to accept
service on behalf of Defendant also suggests she was
not authorized by appointment. Accordingly, the Court
finds that Plaintiff’s counsel’s attempt to serve
Defendant at her place of employment did not comply

App. 22
with Federal Rule 4(e), and the deadline for service has
now passed.
Because the Court does not find that the reasons
stated in the Motion to Extend Time demonstrate
either good cause or excusable neglect, the Motion
(ECF No. 4) is hereby DENIED. The Complaint is
accordingly DISMISSED WITHOUT PREJUDICE,
pursuant to Federal Rule of Civil Procedure 4(m).
The Clerk is DIRECTED to send a copy of this
Memorandum Order to all counsel of record.
This case is CLOSED.
It is so ORDERED.
/s/Henry E. Hudson
Henry E. Hudson
Senior United States District Judge
Date: June 27, 2018
Richmond, Virginia

App. 23

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1995
(3:18-cv-00210-HEH)
[Filed September 16, 2019]
___________________________________
KIMBERLY D. COLLINS
)
)
Plaintiff - Appellant
)
)
v.
)
)
GWENDOLYN THORNTON, Ph.D. )
)
Defendant - Appellee
)
___________________________________ )
___________________
ORDER
___________________
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Judge Motz,
Judge Rushing, and Senior Judge Shedd.

App. 24
For the Court
/s/ Patricia S. Connor, Clerk

